Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  OVERLOOK MEDICAL CENTER
INCORRECTLY BILLED MEDICARE
   INPATIENT CLAIMS WITH
       KWASHIORKOR

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Stephen Virbitsky
                                               Regional Inspector General
                                                   for Audit Services

                                                      October 2014
                                                      A-03-14-00003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
 Overlook Medical Center incorrectly billed Medicare inpatient claims with Kwashiorkor,
 resulting in overpayments of $85,000 over 4 years.

                                           INTRODUCTION

WHY WE DID THIS REVIEW

Kwashiorkor is a form of severe protein malnutrition. It generally affects children living in
tropical and subtropical parts of the world during periods of famine or insufficient food supply.
Cases in the United States are rare. The Medicare program provides health insurance coverage
primarily to people aged 65 or older; however, for calendar years (CYs) 2010 and 2011,
Medicare paid hospitals $711 million for claims that included a diagnosis code for Kwashiorkor.
Therefore, we are conducting a series of reviews of hospitals with claims that include this
diagnosis code.

OBJECTIVE

Our objective was to determine whether Overlook Medical Center (the Hospital) complied with
Medicare billing requirements for Kwashiorkor.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. CMS contracts with Medicare contractors to, among
other things, process and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays inpatient hospital costs at predetermined rates for patient discharges under the
inpatient prospective payment system. The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay. The DRG and severity level are
determined according to diagnoses codes established by the International Classification of
Diseases, Ninth Revision, Clinical Modification (coding guidelines). The coding guidelines
establish diagnosis code 260 for Kwashiorkor. Because Kwashiorkor is considered a high-
severity diagnosis, using diagnosis code 260 may increase the DRG payment.

Overlook Medical Center

The Hospital, which is part of the Atlantic Health System, is a 504-bed acute-care not-for-profit
community hospital located in Summit, New Jersey. The Hospital received $4,948,180 in
Medicare payments for inpatient hospital claims that included diagnosis code 260 for


The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)   1
Kwashiorkor during our audit period (CYs 2010 through 2013) based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $782,062 of $4,948,180 in Medicare payments to the Hospital for 55 inpatient
hospital paid claims that contained diagnosis code 260 for Kwashiorkor. We reviewed only
claims for which removing the diagnosis code 260 changed the Medicare payment. We did not
review managed care claims or claims that were under separate review. We evaluated
compliance with selected Medicare billing requirements but did not use medical review to
determine whether the services were medically necessary. This report does not represent an
overall assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare requirements for billing Kwashiorkor on any of the
55 claims that we reviewed. The Hospital used diagnosis code 260 for Kwashiorkor but should
have used codes for other forms of malnutrition. For 36 of the incorrectly billed inpatient claims,
correcting the diagnosis code resulted in no change in the DRG payment. However, for the
remaining 19 inpatient claims, the errors resulted in overpayments of $84,893. Hospital officials
attributed these errors to a lack of clarity in the coding guidelines and issues with the medical
coding software program used to code the diagnoses.

FEDERAL REQUIREMENTS AND GUIDANCE

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (The Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

In addition, the Medicare Claims Processing Manual requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)   2
INCORRECT USE OF THE DIAGNOSIS CODE FOR KWASHIORKOR

The Hospital did not comply with Medicare billing requirements for Kwashiorkor for any of the
55 claims that we reviewed, resulting in overpayments of $84,893. The coding guidelines
establish diagnosis code 260 for Kwashiorkor. For 36 of the inpatient claims, replacing
diagnosis code 260 with a more appropriate diagnosis code resulted in no change in the DRG
payment. However, for the remaining 19 inpatient claims, the errors resulted in overpayments of
$84,893. Hospital officials attributed these errors to a lack of clarity in the coding guidelines and
issues with the medical coding software program used to code the diagnoses.

                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $84,893 for the incorrectly coded claims and

    •   strengthen controls to ensure full compliance with Medicare billing requirements.

OVERLOOK MEDICAL CENTER COMMENTS

In written comments, the Hospital concurred with our finding that all 55 claims that we reviewed
were incorrectly billed with a diagnosis code for Kwashiorkor and provided documentation to
show that correcting the diagnosis code for 36 claims did not change the payment, which we
reflected in our report. The Hospital described the action it had taken to refund the
overpayments and said that the coding software had been updated.
The Hospital’s comments are included as Appendix B.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)   3
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $782,062 in Medicare payments to the Hospital for 55 inpatient claims that
contained diagnosis code 260 for Kwashiorkor during the period January 1, 2010, through
December 31, 2013. We reviewed only claims for which removing the diagnosis code 260
changed the Medicare payment. We did not review managed care claims or claims that were
under separate review.

We limited our review of the Hospital’s internal controls to those applicable to the coding of
inpatient hospital claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We evaluated compliance with selected
Medicare billing requirements, but did not use medical review to determine whether the services
were medically necessary. We established reasonable assurance of the authenticity and accuracy
of the data obtained from the National Claims History file, but we did not assess the
completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our review from April through August 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient paid claims data from CMS’s National Claims History
        file for the audit period;

    •   selected all paid claims that included the diagnosis code for Kwashiorkor (260);

    •   removed all managed care claims and any claims that were previously reviewed by a
        Recovery Audit Contractor;

    •   removed all claims for which removing the diagnosis code for Kwashiorkor did not
        change the Medicare payment;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   repriced each selected claim in order to verify that the original payment by the CMS
        contractor was made correctly;



The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)   4
    •   requested that the Hospital conduct its own review of the 55 claims to determine whether
        the diagnosis code for Kwashiorkor was used correctly;

    •   reviewed the medical record documentation that the Hospital provided to support other
        malnutrition diagnoses;

    •   discussed the incorrectly coded claims with Hospital officials to determine the underlying
        causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)   5
               APPENDIX B: OVERLOOK MEDICAL CENTER COMMENTS



Atlantic
Health System
                                                                                    Morristown Medical Center
                                                                                         Overlook Medical Center
                                                                                           Newton Medical Center
                                                                                           Chilton Medical Center
                                                                                      Goryeb Children's Hospital
August 18, 2014

VIA EMAIL: Stephen.Virbitsky@oig.hhs.gov
and VIA FIRST CLASS MAIL

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region Ill
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

          RE: Report Number: A-03-14-00036

Dear Mr. Virbitsky:

This letter is in response to your June 6, 2014 letter and subsequent correspondence which
provided the results of the Office of Inspector General's (OIG) review of Overlook Medical
Center's ("Overlook") Medicare billing of claims with diagnosis code 260 (Kwashiorkor). The
OIG's review examined Overlook claims billed during calendar years 2010-2012. The OIG
found that Overlook submitted 56 claims with Kwashiorkor as one of the diagnosis codes. It
was the OIG's position that Overlook incorrectly coded these claims resulting in a $295,469
overpayment.

Of the 56 claims reviewed by the OIG, Overlook provided the OIG with documentation
regarding one claim that had previously been the subject of RAC review. The OIG removed
that claim from its review. Overlook provided the OIG with documentation supporting 36 of
the remaining 55 claims where correcting the diagnosis code did not affect the
payment. After taking this documentation into account, the OIG found that Overlook
incorrectly used the Kwashiorkor diagnosis code on 19 of the 55 claims resulting in an
overpayment of $84,893. Overlook concurs with the OIG's final determination.

Overlook will utilize the usual repayment process to refund the $84,893 overpayment to
Novitas, the Medicare Administrative Contractor.

The billing errors were due to a number of reasons:

         • Software issue with the 3M grouper product which resulted in the incorrect code
          assignment of 260 (Kwashiorkor). Corrective action was taken by 3M with a software

Eva J. Goldenberg                                                     T 973.660.3143 F 973.360.0540
Corporate Compliance & Internal Audit                                eva.goldenberg@atlantichealth.org
475 South Street
Morristown, NJ 07960




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)               6
Atlantic
Health System
                                                                                   Morristown Medical Center
                                                                                       Overlook Medical Center
                                                                                         Newton Medical Center
                                                                                    Goryeb Children's Hospital




               update in October 2010. The update did not immediately take hold. By the end of
               2011, it was implemented and, as is apparent in the claims lists provided by the OIG,
               claims for 2012 were not at issue.
          •    Lack of clarity in the ICD-9 manual's indexed entries for coding "Malnutrition ...
               Protein".
          •    Lack of clarity in AHA Coding Clinic (3rd Quarter 2009) such that coders may not have
               realized that a query was necessary.

If you have any questions, please do not hesitate to contact me.



Very truly yours,


/Eva J. Goldenberg/

Director, Corporate Compliance & Internal Audit
Chief Compliance Officer

EJG/lm
Cc:   Mark Lobs
       Leonard Piccari




Eva J. Goldenberg                                                             T 973.660.3143 F 973.360.0540
Corporate Compliance & Internal Audit                                       eva.goldenberg@atlantichealth.org
475 South Street
Morristown, NJ 07960




The Hospital Incorrectly Billed Medicare Inpatient Claims With Kwashiorkor (A-03-14-00003)            7
